APPENDIX

1a
APPENDIX A
Court of Appeal, Second Appellate District, Division
Four - No. B302925
S269000
IN THE SUPREME COURT OF CALIFORNIA
En Banc
_________________________________________________
JONATHON GREGG, Plaintiff and Respondent,
v.
UBER TECHNOLOGIES, INC. et al., Defendants
and Appellants.
_________________________________________________
The petition for review is denied.
The requests for an order directing publication
of the opinion are denied.

CANTIL-SAKAUYE
Chief Justice
[Filed June 30, 2021]

2a
APPENDIX B
Filed 4/21/21 Gregg v. Uber Technologies, Inc. CA2/4
NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on
opinions not certified for publication or ordered published, except as specified by rule 8.1115(a). This
opinion has not been certified for publication or ordered published for purposes of rule 8.1115(a).
IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FOUR
________________________
JONATHON GREGG,
Plaintiff and Respondent,
v.
UBER TECHNOLOGIES, INC. et al.,
Defendants and Appellants.
________________________
B302925
Los Angeles County Super. Ct. No. BC719085
________________________
APPEAL from an order of the Superior Court of
Los Angeles County, Steven J. Kleifield, Judge. Affirmed.
Littler Mendelson, Sophia Behnia and Andrew
M. Spurchise for Defendants and Appellants.

3a
Outten & Golden, Jahan C. Sagafi, Rachel W.
Dempsey; Merill, Shultz & Bennett, Stephen J. Shultz
and Mark T. Bennett for Plaintiff and Respondent.
INTRODUCTION
Jonathon Gregg sued Uber Technologies, Inc.
and Raiser-CA, LLC (collectively, “Uber”) under the
Private Attorneys General Act of 2004 (PAGA), Labor
Code section 2698 et. seq. 1 He alleged Uber willfully
misclassified him as an independent contractor rather
than an employee, which led to numerous other Labor
Code violations. In response, Uber filed a motion to
compel arbitration under the “Arbitration Provision”
in the “Technology Services Agreement” (“TSA”) that
it had required Gregg to accept in order to use Uber’s
smartphone application and become an Uber driver.
The trial court denied the motion. In doing so,
it rejected Uber’s contentions that: (1) the issue of
Gregg’s misclassification was a “threshold issue” related to whether he had standing to bring a PAGA
claim, which was separate and distinct from the
PAGA claim itself and therefore subject to arbitration;
and (2) the clause in the Arbitration Provision requiring Gregg to waive his right to bring a PAGA claim
(“PAGA Waiver”) was enforceable. On appeal, Uber
largely relies on the same arguments presented in the
trial court to contend its motion to compel arbitration
should have been granted.
In Williams v. Superior Court (2015) 237
Cal.App.4th 642 (Williams) we started the “chorus” of
California courts holding an employer may not compel
an employee to arbitrate whether he or she is an “aggrieved employee” before proceeding with a PAGA
1

All statutory references are to the Labor Code.

4a
claim in Superior Court. (See Contreras v. Superior
Court (2021) 61 Cal.App.5th 461, 477 (Contreras).)
Because we continue to sing the same tune, and join a
similar chorus of California courts deeming PAGA
waivers unenforceable, we reject Uber’s arguments
and affirm.
FACTS AND PROCEDURAL BACKGROUND
Uber is a technology company that has developed a smartphone application known as the “Uber
App,” which connects riders with drivers to arrange
transportation services. As of December 11, 2015,
drivers wanting to use the Uber App must first enter
into the TSA, which contains the Arbitration Provision.
The Arbitration Provision states it is “intended
to apply to . . . disputes that otherwise would be resolved in a court of law” and “requires all such disputes to be resolved only by an arbitrator through final and binding arbitration on an individual basis
only and not by way of court or jury trial, or by way of
class, collective, or representative action.” (Bolded
text omitted.) These disputes include “disputes arising out of or relating to interpretation or application
of [the] Arbitration Provision, including the enforceability, revocability or validity of the Arbitration Provision or any portion [thereof]” 2; “disputes arising out of
or related to [the driver’s] relationship with [Uber]”;
and “disputes regarding any . . . wage-hour law, . . .

2

Uber refers to this language in the Arbitration Provision as
a “delegation clause” because it “delegate[s] threshold issues of
[the Arbitration Provision’s] enforceability to arbitration . . . .”
Because Gregg does not dispute its use of that term, we use it as
well.

5a
compensation, breaks and rest periods, . . . [and] termination[.]”
The Arbitration Provision also identifies the
claims and issues not included in its scope. Of relevance to this appeal, it does not apply to “[a] representative action brought on behalf of others under
[PAGA], to the extent waiver of such a claim is deemed
unenforceable by a court of competent jurisdiction[.]”
The Arbitration Provision also states “the validity of
[its] PAGA Waiver may be resolved only by a civil
court of competent jurisdiction and not by an arbitrator.”
The Arbitration Provision’s PAGA Waiver
states: “Notwithstanding any other provision of [the
TSA] or the Arbitration Provision, to the extent permitted by law, (1) You and [Uber] agree not to bring a
representative action on behalf of others under
[PAGA] in any court or in arbitration, and (2) for any
claim brought on a private attorney general basis—
i.e., where you are seeking to pursue a claim on behalf
of a government entity—both you and [Uber] agree
that any such dispute shall be resolved in arbitration
on an individual basis only (i.e., to resolve whether
you have personally been aggrieved or subject to any
violations of law), and that such an action may not be
used to resolve the claims or rights of other individuals in a single or collective proceeding (i.e., to resolve
whether other individuals have been aggrieved or subject to any violations of law)[.]” (Bolded text omitted.)
Drivers who did not wish to be bound by the Arbitration Provision could opt out in the 30-day period
following their acceptance of the TSA. Those who did
not exercise this option in that time were bound by the
Arbitration Provision.

6a
Gregg signed up to use the Uber App on October 10, 2016 and accepted the TSA three days later.
He did not opt out of the Arbitration Provision in the
following 30 days.
In August 2018, Gregg filed a complaint
against Uber, asserting a single claim under PAGA on
behalf of himself and other current and former employees. He alleged Uber willfully misclassified him
and other current and former employees as independent contractors, which led to its violation of California
Wage Order 9-2001 and numerous other Labor Code
provisions. Gregg’s operative complaint only seeks to
recover civil penalties for the alleged violations.
Uber filed a motion to compel arbitration, 3
seeking an order enforcing the PAGA Waiver by:
(1) requiring Gregg to arbitrate his individual claims;
and (2) dismissing and/or striking his representative
PAGA claim. In support of this position, Uber contended the trial court was required to enforce the
PAGA Waiver under Epic Sys. Corp. v. Lewis (2017)
138 S.Ct. 1612 [200 L.Ed.2d 889] (Epic), which—in its
view— abrogated Iskanian v. CLS Transportation Los
Angeles, LLC (2014) 59 Cal.4th 348 (Iskanian).

3

The motion at issue on appeal is actually a renewed motion
to compel arbitration filed in October 2019. Uber filed its initial
motion to compel in November 2018. At the hearing on the initial
motion, the trial court stayed the case and continued the hearing
to December 5, 2019, pending our Supreme Court’s decision in
ZB, N.A. v. Superior Court (2019) 8 Cal.5th 175 (ZB). Following
ZB’s publication, the trial court approved the parties’ stipulation
to: (1) permit Gregg to amend his complaint to remove his request for unpaid wages, and thereby conform with ZB’s holding
that unpaid wages are not recoverable under PAGA (ZB, supra,
8 Cal.5th at p. 182); and (2) allow Uber’s renewed motion to compel to proceed on their proposed briefing schedule.

7a
In the alternative, Uber requested an order:
(1) “compelling [Gregg] to arbitrate the issue(s) of . . .
whether he was properly classified as an independent
contractor . . . and/or questions of enforceability or arbitrability”; and (2) staying all judicial proceedings
until its motion was resolved and, if arbitration was
ordered, extending the stay until its completion. On
this point, Uber contended the issue whether Gregg
had been misclassified as an independent contractor
(the “misclassification issue”) was a “threshold issue”
governing whether he had standing to bring a PAGA
claim, which would determine whether Gregg’s claim
is arbitrable. Thus, Uber argued, the issue must be
arbitrated because the Arbitration Provision delegated issues of arbitrability to an arbitrator.
As noted above, the trial court denied the motion, reasoning that under California law: (1) whether
a plaintiff is an “aggrieved employee” within the
meaning of PAGA 4 is an essential element of a PAGA
claim, not a “separate standing issue” capable of being
“parse[d] out” for arbitration; and (2) the PAGA
Waiver was not enforceable. Uber timely appealed.

4

Per section 2699, subdivision (a), “any provision of [the Labor
Code] that provides for a civil penalty to be assessed and collected by the Labor and Workforce Development Agency . . . , for
a violation of [the Labor Code], may . . . be recovered through a
civil action brought by an aggrieved employee on behalf of himself or herself and other current or former employees.” For purposes of PAGA, an “aggrieved employee” is “any person who was
employed by the alleged violator and against whom one or more
of the alleged violations was committed.” (§ 2699, subd. (c).)

8a
DISCUSSION
I.

Standard of Review

Where, as here, the trial court’s order denying
a motion to compel arbitration “rests solely on a decision of law,” the “de novo standard of review is employed. [Citations.]” (Robertson v. Health Net of California, Inc. (2005) 132 Cal.App.4th 1419, 1425.)
II.

Analysis

Uber contends the order denying its motion to
compel must be reversed because the Arbitration Provision is enforceable as written. In support of this position, Uber essentially raises two arguments, which
are largely identical to the ones it presented in the
trial court. We address each in turn below.

sue

A.

Arbitrability of Misclassification Is-

First, Uber contends the trial court should have
enforced the Arbitration Provision’s delegation clause
and “require[d] Gregg to arbitrate the issue of
whether his threshold worker classification is arbitrable[.]” In support of this position, Uber contends the
misclassification issue is a “threshold issue” separate
and distinct from his PAGA claim, which will determine whether he has standing as an “aggrieved employee” under section 2699 to bring such a claim, and
therefore will determine whether his claim is arbitrable. Uber therefore argues the misclassification issue’s arbitrability must be resolved by arbitration, as
the delegation clause requires “disputes arising out of
or relating to . . . application of [the] Arbitration Provision or any portion [thereof] . . . . be decided by an
[a]rbitrator and not by a court or judge.”

9a
In the alternative, Uber contends the trial court
should have required Gregg to arbitrate the misclassification issue. Specifically, after reiterating its contention that the issue is separate from his PAGA
claim, Uber contends “Gregg’s alleged misclassification . . . is a private dispute between him and Uber
regarding the nature of their business relationship,”
in which the state has no interest, and which the parties expressly agreed to resolve by arbitration.
The crux of both arguments above is Uber’s contention that the issue whether Gregg is an “aggrieved
employee” under section 2699 is not a part of his
PAGA claim at all, and therefore can be arbitrated
even if the PAGA claim cannot. As Gregg correctly
points out, however, California appellate courts have
uniformly rejected this argument, and “consistently
. . . [held] that threshold issues involving whether a
plaintiff is an ‘aggrieved employee’ for purposes of a
representative PAGA-only action cannot be split into
individual arbitrable and representative nonarbitrable components.” (Provost v. YourMechanic, Inc.
(2020) 55 Cal.App.5th 982, 996, rev. denied Jan. 20,
2021 (Provost) [citing Williams, supra, 23 Cal.App.4th
642 and its progeny].) This is so because “a PAGAonly representative action is not an individual action
at all, but instead is one that is indivisible and belongs
solely to the state.” (Id. at p. 988, second italics added.)
Therefore, a plaintiff “cannot [be] require[d] . . . to submit by contract any part of his representative PAGA
action to arbitration.” (Ibid, italics added.) Applying
these principles, the Provost court held a plaintiff’s
classification as an employee or independent contractor “falls within the ambit” of the “threshold issues”
that cannot be split from the representative PAGA
claim. (Id. at p. 996.)

10a
Recently, in Contreras, supra, 61 Cal.App.5th
461, Division 5 of this court rebuffed an attempt
nearly identical to Uber’s to “carve out” the issue of
the plaintiffs’ classification from their PAGA claim as
a “gateway issue” of arbitrability within the purview
of a delegation clause. (See id. at pp. 468, 473.) In so
doing, Division 5 relied on—and set forth in detail—
the extensive authority demonstrating the “‘splitting
of the PAGA claim’” sought by the defendants was impermissible, including Provost, Williams, and several
other Court of Appeal decisions. (See id. at pp. 474477.)
Uber asserts we should not follow Provost and
Contreras 5 because they relied on “the Williams line
of cases,” which is “inapposite.” Specifically, Uber emphasizes the defendants in Williams and its progeny
sought to arbitrate whether the plaintiffs were “aggrieved,” whereas here, Uber seeks to arbitrate
whether Gregg was an “employee.” We are not persuaded, as this is a distinction without a difference.
Despite its focus on a different portion of the definition
set forth in section 2699, subdivision (c), Uber strives
to achieve the exact same outcome sought by the defendants in Williams and its progeny through similar
means: to avoid litigating a PAGA claim in court by
severing a key issue related to whether the plaintiff is
an “aggrieved employee” from the PAGA claim itself.

5

Contreras was published after briefing was completed in this
case. Gregg’s counsel, however, included a citation to the case in
a notice of supplemental authority. And at oral argument, counsel for both parties stated they were familiar with the decision
and were allowed to present arguments regarding its applicability to this appeal.

11a
Under well-settled California law, this it cannot do. 6
(See Contreras, supra, 61 Cal.App.5th at pp. 474-477;
Provost, supra, 55 Cal.App.5th at pp. 993-996.)
In sum, we agree with Provost and Contreras,
and conclude the misclassification issue is part and
parcel of the “indivisible” representative PAGA claim
asserted in this case, which “belongs solely to the
state.” (Provost, supra, 55 Cal.App.5th at p. 988.) The
record does not demonstrate the state agreed to arbitrate the misclassification issue or delegate the arbitrability of that issue to an arbitrator. Nor does it establish Gregg was acting as an agent of the state when
he agreed to the TSA. Accordingly, the trial court correctly determined Gregg cannot be required to resolve
those issues through arbitration. (See Correia v. NB
Baker Electric, Inc. (2019) 32 Cal.App.5th 602, 622
(Correia) [“Without the state’s consent, a predispute
agreement between an employee and an employer
cannot be the basis for compelling arbitration of a representative PAGA claim because the state is the
owner of the claim and the real party in interest, and
the state was not a party to the arbitration agreement.”]; see also Bautista v. Fantasy Activewear, Inc.
(2020) 52 Cal.App.5th 650, 657-658 [“Because [the
plaintiffs] were not acting as agents of the state when
they entered into the arbitration agreements at issue
here, [the defendant] has identified no arbitration
agreement that would bind the real party in interest
6

Uber relies on the same federal district court decisions cited
by the defendant in Contreras to argue the “threshold worker
classification issue must be determined by an arbitrator where
the arbitration agreement contains a delegation clause.” (See
Contreras, supra, 61 Cal.App.5th at p. 477, fn. 8.) Like Division
5, we too “find these cases irrelevant to this appeal” because
“[n]one of [them] involve PAGA claims[.]” (Ibid.)

12a
here—the state—to arbitration, even of the question
of arbitrability.”].)
B.

Enforceability of PAGA Waiver

Next, Uber argues that even if the misclassification issue is not separately arbitrable, the trial
court should have enforced the Arbitration Provision’s
PAGA Waiver by “dismissing or striking the representative PAGA claim and compelling arbitration . . .
of his PAGA claim on an individual basis[.]” On this
point, Uber acknowledges that in Iskanian, supra, 59
Cal.4th 348, our Supreme Court held “that an employee’s right to bring a PAGA action is unwaivable,”
and that “where . . . an employment agreement compels the waiver of representative claims under the
PAGA, it is contrary to public policy and unenforceable as a matter of state law.” (Id. at pp. 383-384.) According to Uber, however, Iskanian has since been abrogated by Epic, supra, 138 S.Ct. 1612.
Numerous Courts of Appeal have rejected the
contention that Iskanian is no longer good law in the
wake of Epic.
(See, e.g., Correia, supra, 32
Cal.App.5th at p. 620; Provost, supra, 55 Cal.App.5th
at pp. 997-998; Olson v. Lyft, Inc. (2020) 56
Cal.App.5th 862, 864, 872-873; Collie v. The Icee Co.
(2020) 52 Cal.App.5th 477, 480, rev. denied Nov. 10,
2020.) In the first decision to do so, Division One of
the Fourth Appellate District explained: “Iskanian
held that a ban on bringing PAGA actions in any forum violates public policy and that this rule is not
preempted by the FAA because the claim is a governmental claim. [Citation.] Epic did not consider this
issue and thus did not decide the same question differently. [Citation.] Epic addressed a different issue
pertaining to the enforceability of an individualized
arbitration requirement against challenges that such

13a
enforcement violated the [National Labor Relations
Act]. [Citation.]” (Correia, supra, 32 Cal.App.5th p.
619, italics in original.) In Contreras, Division 5 of
this court “joined [these] Courts of Appeal.” (Contreras, supra, 61 Cal.App.5th at pp. 471-472.) For the
reasons stated in Correia and the other authorities
cited above, we do so as well, and conclude Uber’s argument regarding the PAGA Waiver’s enforceability
is without merit. 7
DISPOSITION
The order denying the motion compel arbitration is affirmed. Respondent shall recover his costs on
appeal.
NOT TO BE PUBLISHED IN THE OFFICIAL
REPORTS
CURREY, J.
We concur:
MANELLA, P.J.

7

We are not persuaded by Uber’s argument that Iskanian
(and Correia’s analysis based thereon) are inapplicable because
Gregg could have opted out of the Arbitration Provision. “‘Iskanian’s underlying public policy rationale—that a PAGA waiver
circumvents the Legislature’s intent to empower employees to
enforce the Labor Code as agency representatives and harms the
state’s interest in enforcing the Labor Code—does not turn on
how the employer and employee entered into the agreement, or
the mandatory or voluntary nature of the employee’s initial consent to the agreement.’ [Citation.]” (Williams, supra, 237
Cal.App.4th at p. 648.)

14a
COLLINS, J.

15a
APPENDIX C
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF LOS ANGELES
Civil Division
Central District, Stanley Mosk Courthouse, Department 57
JOHNATHON GREGG VS UBER
TECHNOLOGIES INC ET AL
________________________
BC719085
December 5, 2019 8:30 AM
________________________
Judge: Honorable Steven J. Kleifield

CSR: J. Fonseca

Judicial Assistant: J. Jimenez

ERM: None

Courtroom Assistant: K. Ghazarian

Deputy Sheriff:
None

APPEARANCES:
For Plaintiff(s): Jahan Crawford Sagafi and Rachel
Williams Dempsey
For Defendant(s): Sophia Behnia
NATURE OF PROCEEDINGS: Hearing on Motion
to Compel Arbitration and Stay Proceedings
The matter is called for hearing.
Pursuant to Government Code sections 68086, 70044,
and California Rules of Court, rule 2.956, Jennifer
Spee Fonseca CSR 12840, certified shorthand reporter

16a
is appointed as an official Court reporter pro tempore
in these proceedings, and is ordered to comply with
the terms of the Court Reporter Agreement. The Order is signed and filed this date.
The Court, having read and considered all papers filed
and heard argument, comes on now and orders as follows:
The Motion to Compel Arbitration filed by Uber Technologies, Inc. on 11/01/2018 is Denied.
Defendant represents an appeal will be filed on the
ruling of this motion.
Defendant requests case to be stayed pending appeal.
Status Conference re appeal is scheduled for 09/10/20
at 08:30 AM in Department 57 at Stanley Mosk Courthouse.
Notice is waived.

17a
APPENDIX D
Statutory Provisions Involved
9 U.S.C § 2. Validity, irrevocability, and enforcement of agreements to arbitrate
A written provision in any maritime transaction or a contract evidencing a transaction involving
commerce to settle by arbitration a controversy thereafter arising out of such contract or transaction, or the
refusal to perform the whole or any part thereof, or an
agreement in writing to submit to arbitration an existing controversy arising out of such a contract,
transaction or refusal, shall be valid, irrevocable, and
enforceable, save upon such grounds as exist at law or
in equity for the revocation of any contract.
(July 30, 1947, ch. 392, 61 Stat. 670.)
DERIVATION
Act Feb. 12, 1925, ch. 213, § 2, 43 Stat. 883.

18a
California Labor Code § 2699
(a) Notwithstanding any other provision of law, any
provision of this code that provides for a civil penalty
to be assessed and collected by the Labor and Workforce Development Agency or any of its departments,
divisions, commissions, boards, agencies, or employees, for a violation of this code, may, as an alternative,
be recovered through a civil action brought by an aggrieved employee on behalf of himself or herself and
other current or former employees pursuant to the
procedures specified in Section 2699.3.
(b) For purposes of this part, “person” has the same
meaning as defined in Section 18.
(c) For purposes of this part, “aggrieved employee”
means any person who was employed by the alleged
violator and against whom one or more of the alleged
violations was committed.
(d) For purposes of this part, “cure” means that the
employer abates each violation alleged by any aggrieved employee, the employer is in compliance with
the underlying statutes as specified in the notice required by this part, and any aggrieved employee is
made whole. A violation of paragraph (6) or (8) of subdivision (a) of Section 226 shall only be considered
cured upon a showing that the employer has provided
a fully compliant, itemized wage statement to each aggrieved employee for each pay period for the threeyear period prior to the date of the written notice sent
pursuant to paragraph (1) of subdivision (c) of Section
2699.3.
(e)
(1) For purposes of this part, whenever the Labor and Workforce Development Agency, or any
of its departments, divisions, commissions,

19a
boards, agencies, or employees, has discretion
to assess a civil penalty, a court is authorized to
exercise the same discretion, subject to the
same limitations and conditions, to assess a
civil penalty.
(2) In any action by an aggrieved employee
seeking recovery of a civil penalty available under subdivision (a) or (f), a court may award a
lesser amount than the maximum civil penalty
amount specified by this part if, based on the
facts and circumstances of the particular case,
to do otherwise would result in an award that
is unjust, arbitrary and oppressive, or confiscatory.
(f) For all provisions of this code except those for which
a civil penalty is specifically provided, there is established a civil penalty for a violation of these provisions, as follows:
(1) If, at the time of the alleged violation, the
person does not employ one or more employees,
the civil penalty is five hundred dollars ($500).
(2) If, at the time of the alleged violation, the
person employs one or more employees, the civil
penalty is one hundred dollars ($100) for each
aggrieved employee per pay period for the initial violation and two hundred dollars ($200)
for each aggrieved employee per pay period for
each subsequent violation.
(3) If the alleged violation is a failure to act by
the Labor and Workplace Development Agency,
or any of its departments, divisions, commissions, boards, agencies, or employees, there
shall be no civil penalty.
(g)

20a
(1) Except as provided in paragraph (2), an aggrieved employee may recover the civil penalty
described in subdivision (f) in a civil action pursuant to the procedures specified in Section
2699.3 filed on behalf of himself or herself and
other current or former employees against
whom one or more of the alleged violations was
committed. Any employee who prevails in any
action shall be entitled to an award of reasonable attorney’s fees and costs, including any filing fee paid pursuant to subparagraph (B) of
paragraph (1) of subdivision (a) or subparagraph (B) of paragraph (1) of subdivision (c) of
Section 2699.3. Nothing in this part shall operate to limit an employee’s right to pursue or recover other remedies available under state or
federal law, either separately or concurrently
with an action taken under this part.
(2) No action shall be brought under this part
for any violation of a posting, notice, agency reporting, or filing requirement of this code, except where the filing or reporting requirement
involves mandatory payroll or workplace injury
reporting.
(h) No action may be brought under this section by an
aggrieved employee if the agency or any of its departments, divisions, commissions, boards, agencies, or
employees, on the same facts and theories, cites a person within the timeframes set forth in Section 2699.3
for a violation of the same section or sections of the
Labor Code under which the aggrieved employee is attempting to recover a civil penalty on behalf of himself
or herself or others or initiates a proceeding pursuant
to Section 98.3.

21a
(i) Except as provided in subdivision (j), civil penalties
recovered by aggrieved employees shall be distributed
as follows: 75 percent to the Labor and Workforce Development Agency for enforcement of labor laws, including the administration of this part, and for education of employers and employees about their rights
and responsibilities under this code, to be continuously appropriated to supplement and not supplant
the funding to the agency for those purposes; and 25
percent to the aggrieved employees.
(j) Civil penalties recovered under paragraph (1) of
subdivision (f) shall be distributed to the Labor and
Workforce Development Agency for enforcement of labor laws, including the administration of this part,
and for education of employers and employees about
their rights and responsibilities under this code, to be
continuously appropriated to supplement and not supplant the funding to the agency for those purposes.
(k) Nothing contained in this part is intended to alter
or otherwise affect the exclusive remedy provided by
the workers’ compensation provisions of this code for
liability against an employer for the compensation for
any injury to or death of an employee arising out of
and in the course of employment.
(l)
(1) For cases filed on or after July 1, 2016, the
aggrieved employee or representative shall,
within 10 days following commencement of a
civil action pursuant to this part, provide the
Labor and Workforce Development Agency
with a file-stamped copy of the complaint that
includes the case number assigned by the court.
(2) The superior court shall review and approve
any settlement of any civil action filed pursuant

22a
to this part. The proposed settlement shall be
submitted to the agency at the same time that
it is submitted to the court.
(3) A copy of the superior court’s judgment in
any civil action filed pursuant to this part and
any other order in that action that either provides for or denies an award of civil penalties
under this code shall be submitted to the
agency within 10 days after entry of the judgment or order.
(4) Items required to be submitted to the Labor
and Workforce Development Agency under this
subdivision or to the Division of Occupational
Safety and Health pursuant to paragraph (4) of
subdivision (b) of Section 2699.3, shall be transmitted online through the same system established for the filing of notices and requests under subdivisions (a) and (c) of Section 2699.3.
(m) This section shall not apply to the recovery of administrative and civil penalties in connection with the
workers’ compensation law as contained in Division 1
(commencing with Section 50) and Division 4 (commencing with Section 3200), including, but not limited
to, Sections 129.5 and 132a.
(n) The agency or any of its departments, divisions,
commissions, boards, or agencies may promulgate
regulations to implement the provisions of this part.
(Amended by Stats. 2016, Ch. 31, Sec. 189. (SB 836)
Effective June 27, 2016.)

